    July 31, 2006




Financial Management

Marine Corps Governmental
Purchases
(D2006-102)




                 Department of Defense
                Office of Inspector General

                                  Constitution of
                                 the United States

    A Regular Statement of Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                            Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFARS                 Defense Federal Acquisition Regulation Supplement
FMR                   Financial Management Regulation
GSA                   General Services Administration
IMEF                  First Marine Expeditionary Force
MIPR                  Military Interdepartmental Purchase Request,
O&M                   Operation and Maintenance
OIG                   Office of Inspector General
RDT&E                 Research, Development, Test, and Evaluation
SABRS                 Standard Accounting, Budgeting and Reporting System
U.S.C.                United States Code
                              INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                               July 3 1,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)ICHIEF FINANCIAL OFFICER
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on Marine Corps Governmental Purchases (Report No. D-2006-102)

      We are providing this report for review and comment. We considered
management comments on the draft report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments from the Under Secretaly of Defense
(Comptrol1er)lChiefFinancial Officer and the Commandant of the Marine Corps, we
deleted and revised recomn~endations.Specifically, we deleted Recommendations A.l .b.
and B.2. and revised Recommendation A.l .a. and B.1. to clarify our intentions. We
renumbered the Draft Recommendation A. 1.a as Recomlnendation A. 1 and Draft
Recommendation B.l as Recommendation B. The Under Secretary of Defense
(Comptrol1er)lChiefFinancial Officer comments on Recommendation A. 1. were
nonresponsive. The Commandant of the Marine Camps comments on Recommendations
~.2.b.,-A.2.c.,A.2.d., A.2.c., and U wcre partially rcsponsivc. Thcrcrorc, wc request that
the Unclcr Sccretarv of Dclensc (C'omutrollcr)/(~hicfFinancial Ol'liccr ~>roviclc
                                                                                ;idtlition;~l
comments on ~ecdmmendation'A.1. ind the commandant of the ~ a r h Corps    e      provide
additional comments on Recommendations A.2.b., A.2.c., A.2.d., A.2.e., and B by
August 3 1,2006.
        If possible, please send management comments in electronic fommat (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPWET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara Sauls at (703) 325-5782 (DSN 221-5782) or to Ms. Alice F. Carey at
(703) 325-6839 (DSN 221-6839). The team members are listed inside the back cover.
See Appendix F for the report distribution.
                                By direction of the Deputy Inspector General for Auditing:



                                        p          h a flhf-94
                                       forPaul J. Granetto, CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                  Service
               Department of Defense Office of Inspector General
Report No. D-2006-102                                                        July 31, 2006
   (Project No. D2005-D000FH-0288.000)

                    Marine Corps Governmental Purchases

                                 Executive Summary

Who Should Read This Report and Why? Congress; the Under Secretary of Defense
(Comptroller)/Chief Financial Officer; the Commandant of the Marine Corps; the Deputy
Commandant, Programs and Resources; and Defense Finance and Accounting Service
should read this report. The users of this audit report will benefit from the review of
controls over the Marine Corps purchases from and sales to other governmental agencies
and gain information that can improve public accountability and decision making.
Background. This is the first in a series of reports discussing DoD use of interagency
and interservice support. This report discusses Marine Corps interagency and
interservice support. Section 1535, United States Code, title 31, “Agency Agreements,”
allows the head of an agency to place an order with another agency for goods or services
if funds are available, it is in the best interest of the U.S. Government, the other agency
can fill the order, and the order cannot be provided as conveniently by contract with a
commercial enterprise. In accordance with Public Law 108-375, the Ronald Reagan
National Defense Authorization Act of FY 2005, Section 802, “Internal Controls for
Department of Defense Procurements Through [General Services Administration] GSA
Client Support Centers,” the DoD Office of Inspector General and the General Services
Administration conducted an interagency audit of DoD purchases made by General
Services Administration. In that audit, the DoD Office of Inspector General determined
that guidance was unclear and that fund mismanagement and lack of acquisition planning
for the funds transferred to General Services Administration caused between $1 billion
and $2 billion of DoD funds to either expire or otherwise be unavailable to support DoD
operations. That finding prompted DoD Office of Inspector General management to
conduct this series of audits on the subject.
Results. The Marine Corps did not have adequate internal controls over governmental
purchases. Specifically, the Marine Corps internal controls did not ensure that it properly
managed outgoing and incoming military interdepartmental purchase requests (MIPRs).
The internal controls were inadequate because the existing guidance from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer and the Marine Corps was
unclear. Additionally, the Marine Corps had not provided Marine Corps Comptroller’s
office personnel with updated guidance and implementing procedures, to include
training. As a result, Marine Corps MIPRs violated public law and did not comply with
Federal, DoD, and Marine Corps regulations.

The Under Secretary of Defense (Comptroller)/Chief Financial Officer should revise the
DoD Financial Management Regulations, volume 11A, chapter 3 to clarify that a DoD
organization requesting interservice support must prepare a Determinations and Findings
unless it has completed a Support Agreement in accordance with DoD Instruction
4000.19. The Commandant of the Marine Corps should direct the Comptroller Offices to
review MIPRs to ensure they do not violate the Bona Fide Needs Rule and
Antideficiency Act and initiate required corrective actions; develop procedures and
controls that ensure required data and supporting documents are developed and reviewed
before a MIPR is certified; develop roles and responsibilities for offices involved in the
MIPR process; develop procedures and controls to ensure that all required MIPR
documents and source documentation are properly maintained; clarify the guidance on
the requirement for a Determinations and Findings, Support Agreement, or Memorandum
for Record; and direct the Marine Corps Comptroller Offices to develop or update
internal guidance on processing MIPRs, and establish training courses on MIPR policies
and procedures. (finding A)

The Marine Corps management control program was ineffective and did not identify
material weaknesses related to reporting MIPRs. As a result, controls were not adequate
to ensure that funds were properly obligated, expensed, and disbursed. The Commandant
of the Marine Corps should perform periodic assessments of the effectiveness and
reliability of the internal controls over MIPRs identified by the major commands’
management control programs. (finding B) See the Findings section of the report for the
detailed recommendations.

Management Comments and Audit Response. The Deputy Chief Financial Officer,
responding for the Under Secretary of Defense (Comptroller)/Chief Financial Officer
nonconcurred with the recommendations. The Deputy Chief Financial Officer comments
were nonresponsive. We do not agree with management’s determination that current
guidance adequately discusses the requirements for a Determinations and Findings or
Support Agreement. As a result of management comments, we revised Recommendation
A.1.a to clarify our intentions and deleted Recommendation A.1.b. We request that the
Under Secretary of Defense (Comptroller)/Chief Financial Officer provide comments on
the final report by August 31, 2006.

The Assistant Deputy Commandant for Programs and Resources responding for the
Commandant of the Marine Corps concurred with all recommendations. The Assistant
Deputy Commandant for Programs and Resources comments were partially responsive.
Although the Marine Corps concurred, we do not agree with management’s
determination that current guidance adequately discusses developing procedures and
controls, outlining roles and responsibilities, clarifying guidance, and assessing internal
controls. We request that the Commandant of the Marine Corps provide comments on
the final report by August 31, 2006.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Managers’ Internal Control Program                                             3

Findings
     A. Adequacy of Marine Corps Internal Controls over Governmental
          Purchases                                                            4
     B. Marine Corps Management Control Program for Military
          Interdepartmental Purchase Requests                                 21

Appendixes
     A. Scope and Methodology                                                 24
           Prior Coverage                                                     25
     B. Glossary of Technical Terms                                           27
     C. MIPRs Reviewed                                                        29
     D. Issues with MIPRs Reviewed                                            35
     E. Availability of Funds                                                 37
     F. Report Distribution                                                   39

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               41
     United States Marine Corps                                               44
Background
           This is the first in a series of reports discussing DoD use of interagency and
           interservice support. This report discusses Marine Corps interagency and
           interservice support issues. The remaining reports will discuss Army, Navy,
           Missile Defense Agency, and Special Operations Command use of interagency
           and interservice support. DoD Office of Inspector General (OIG) will issue a
           separate series of reports to discuss DoD interagency support from the General
           Services Administration (GSA), Department of Treasury, Department of Interior,
           and National Aeronautics & Space Administration.

           Federal Guidance. Section 1535, United States Code, title 31, (31 U.S.C 1535),
           “Agency Agreements,” January 7, 2003, allows the head of an agency to place an
           order with another agency for goods or services if those goods or services are
           available, it is in the best interest of the U.S. Government, the other agency can
           fill the order, and the order cannot be provided as conveniently by contract with a
           commercial enterprise.

           Section 2410a, United States Code, title 10, “Severable Service Contracts for
           Periods Crossing Fiscal Years,” January 26, 1998, allows a contracting officer to
           enter into a contract, exercise an option, or place an order under a contract for
           severable 1 services for a period that begins in one fiscal year and ends in the next
           fiscal year if the period of the contract awarded, option exercised, or order placed
           does not exceed one year.

           The Federal Acquisition Regulation, Subpart 17.5, “Interagency Acquisitions
           Under the Economy Act,” August 25, 2003 defines an interagency acquisition as
           one agency obtaining supplies and services from another agency. The regulation
           states that the procedures for Economy Act orders between major organizational
           units within an agency are to be addressed in agency regulations.

           DoD Guidance. DoD Instruction 4000.19, “Interservice and Intragovernmental
           Support,” August 9, 1995, implements policies, procedures, and responsibilities
           for interservice and intragovernmental support. The Instruction states that DoD
           organizations may provide services to other DoD organizations when the head of
           the requesting organization determines it is in the best interest of the Government,
           and the head of the supplying organization determines that providing support will
           not jeopardize its own mission. Specifically, DoD organizations can provide
           support with their own personnel or add the requesting organization’s
           requirements to an existing contract.

           The Instruction states that Support Agreements for supplies and services that will
           be provided under contracts administered by non-DoD Federal organizations must
           meet one of the following requirements:




1
    A task is severable if it can be separated into components that independently meet a separate and ongoing
    need of the Government.



                                                       1
   •   The supplying agency made the purchase under a contract that it entered
       into, before the agreement, to meet its own requirements for the same or
       similar services;

   •   The supplying agency is better qualified to enter into or administer the
       contract for specified support by reason of capabilities or expertise not
       available within the Department; or

   •   The supplying agency is specifically authorized by law or regulations to
       purchase such services on behalf of other agencies, or the purchase is
       authorized by an Executive Order or by specific circumstances identified
       in the Federal Acquisition Regulation.

DoD Financial Management Regulation (FMR), volume 11A, chapter 3,
“Economy Act Orders and Other Interagency Orders,” March 2003, prescribes
policies and procedures applicable to transactions where goods or services are
procured from other Federal agencies under the Economy Act, Title 31, United
States Code, section 1535. An organization within a DoD Component may place
an order for goods or services with another organization within the same DoD
Component, another DoD Component, or with another Federal agency.

The Office of the Under Secretary of Defense (Comptroller) provided DoD policy
in a memorandum, “Fiscal Principles and Interagency Agreements,”
September 25, 2003. The memorandum states that every order under an
interagency agreement must have a legitimate, specific, and adequately
documented requirement representing a bona fide need of the year in which the
agency made the order. It also states that DoD may not use an interagency
agreement in the last days of the fiscal year solely to prevent funds from expiring
or to keep them available for a requirement arising in the following fiscal year.

DoD Military Interdepartmental Purchase Requests. The military
interdepartmental purchase request (MIPR), DD Form 448, is issued by one
military Service to another to procure supplies or services. The supplying
Service provides a DD Form 448-2, “MIPR Acceptance,” agreeing to provide the
requested supplies or services. DoD may also issue the MIPR to non-DoD
agencies. DoD typically issues MIPRs as an Economy Act Order but may issue
them under a more specific statutory authority. MIPRs are funded on a direct
citation or reimbursable basis. The MIPR amount should be reduced when the
obligated appropriation is no longer available for obligation.

Non-Defense Purchases. In accordance with Public Law 108-375, the Ronald
Reagan National Defense Authorization Act of FY 2005, Section 802, “Internal
Controls for Department of Defense Procurements Through GSA Client Support
Centers,” DoD OIG and the GSA conducted an interagency audit of DoD
purchases made by GSA. The DoD OIG determined that guidance was unclear
and misunderstood. The DoD OIG determined the mismanagement of funds and
lack of acquisition planning for the funds transferred to GSA caused between
$1 billion and $2 billion of DoD funds to either expire or otherwise be
unavailable to support DoD operations. As a result of this finding, OIG
management decided to conduct additional audits on this subject.



                                     2
Objectives
           Our overall objective was to evaluate the internal controls over Marine Corps
           purchases from governmental sources. Specifically, we examined the
           Marine Corps’ process for initiating MIPRs and obligating and disbursing funds
           for MIPRs, interagency purchases, and their equivalents. We examined whether
           the Marine Corps clearly defined its requirements and whether it properly used
           and tracked funds. We also evaluated the management control program as it
           relates to our audit objective. Finding B further discusses the management
           control program. See Appendix A for a discussion of the scope and methodology
           and prior coverage related to the objectives. Appendix B is a glossary of
           technical terms used in this report.


Managers’ Internal Control Program
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 2

           Scope of the Review of the Management Control Program. We reviewed the
           adequacy of Marine Corps management controls over MIPRs, interagency
           purchases, and their equivalents. Specifically, we reviewed Marine Corps
           management controls over the process of initiating MIPRs and obligating and
           disbursing funds for MIPRs. We also reviewed the adequacy of management’s
           self-evaluation of those controls.

           Adequacy of Management Controls. The Marine Corps had material
           management control weaknesses as defined by DoD Instruction 5010.40. The
           Marine Corps management controls for processing MIPRs were not adequate to
           ensure that funds were properly obligated, expensed, and disbursed.
           Recommendations A.1 and A.2, if implemented, will correct the identified
           weaknesses and could result in potential monetary benefits. The amount of
           monetary benefits is undeterminable at this time because DoD could not provide a
           complete universe of MIPRs and we were unable to project on the dollar amounts
           identified in our audit sample. We will provide a copy of the report to the senior
           official responsible for management controls in the Marine Corps.

           Adequacy of Management’s Self-Evaluation. Marine Corps officials did not
           identify the MIPR process as an assessable unit and, therefore, did not identify or
           report the material management control weaknesses identified by the audit.

2
    As of January 2006, DoD Directive 5010.38 “Management Control Program,” August 26, 1996 has been
    canceled and DoD Instruction 5010.40 “Management Control (MC) Program Procedures,” August 28,
    1996, was revised and renamed “Managers’ Internal Control (MIC) Program Procedures. However, these
    criteria were applicable at the time of the OIG’s audit. Further, the cancellation and revision had no
    impact on the audit findings.



                                                     3
                    A. Adequacy of Marine Corps Internal
                       Controls over Governmental
                       Purchases
                    The Marine Corps did not have adequate internal controls over
                    governmental purchases. Specifically, the Marine Corps internal controls
                    did not ensure that it properly managed outgoing and incoming MIPRs.
                    The internal controls were inadequate because the existing guidance from
                    the Under Secretary of Defense (Comptroller)/Chief Financial Officer and
                    the Marine Corps was unclear. Additionally, the Marine Corps had not
                    provided Marine Corps Comptroller’s office personnel with updated
                    guidance and implementing procedures, to include training. Without
                    providing or following guidance on the process, the Marine Corps
                    personnel, in their use of MIPRs, could not ensure that purchases:
                                •   were in the best interest of the Federal Government,

                                •   complied with Federal, DoD, and Marine Corps regulations,
                                    and

                                •   conformed to Federal appropriations laws.


Marine Corps MIPRs
           The Marine Corps was unable to provide a universe that included all incoming
           and outgoing MIPRs. Although the Marine Corps Headquarters did maintain a
           database of outgoing MIPRs, that database was incomplete because the
           Marine Corps Comptrollers did not ensure that the standard document numbers 3
           assigned to MIPRs included all required information. The database did not
           include incoming MIPRs at all. Because the Marine Corps Headquarters could
           not provide a complete universe, we judgmentally selected a sample of MIPRs for
           each location we visited for a total of 114 MIPRs. Specifically, we reviewed
           54 outgoing MIPRs and 60 incoming MIPRs. See Appendix C for tables of those
           MIPRs and Appendix D for the issues identified during our audit.


Outgoing Marine Corps MIPRs
           The Marine Corps did not have adequate internal controls over its outgoing
           MIPRs. We reviewed 54 MIPRs, valued at about $14 million, that the




3
    The standard document number is a 15-position number used for requisitions. Positions 9 and 10 consist
    of the document type code, which for MIPRs is “MP.”



                                                      4
           Marine Corps Base, Quantico (Quantico); Marine Corps Base, Camp Pendleton
           (Camp Pendleton); and First Marine Expeditionary Force, Camp Pendleton
           (IMEF) had issued to other Government sources. The Marine Corps had not
           followed existing guidance for properly initiating, preparing, and executing those
           MIPRs.

           MIPR Initiation
           Marine Corps requesting organizations were responsible for determining that
           MIPR purchases were in the best interest of the Government and served a
           bona fide need.

           Determinations and Findings and Support Agreements. The Federal
           Acquisition Regulation, Subpart 17.5, “Interagency Acquisitions Under the
           Economy Act,” August 25, 2003, and DoD Financial Management Regulation
           (FMR), volume 11A, chapter 3, “Economy Act Orders and Other Interagency
           Orders,” March 2003, require a Determinations and Findings document to support
           each Economy Act order that uses interagency support capabilities. 4 According
           to the FAR 17.5 the Economy Act applies when more specific statutory authority
           does not exist. Further, DoD FMR volume 11A, chapter 3 explains the
           importance of identifying the source of the authority for the provision of goods
           and services. If no statutory authority can be identified, the authority will be
           deemed to be the Economy Act. All 54 outgoing MIPRs we reviewed failed to
           cite a specific statute of authority; therefore, we interpreted them to be Economy
           Act transactions. The requesting agency should use the Determinations and
           Findings to ensure that orders, such as the MIPRs we reviewed, are in the best
           interest of the U.S. Government, and that the Government cannot obtain the
           supplies and services as conveniently or economically by contracting directly
           with a commercial enterprise. Further, DoD Instruction 4000.19, “Interservice
           and Intragovernmental Support,” August 9, 1995, states that DoD organizations
           may enter into agreements with DoD and non-DoD Federal organizations. For
           agreements with non-DoD Federal organizations, DoD must ensure that:

                •   funding is available to pay for the support,

                •   the agreement is in the best interest of the Government,

                •   the supplying organization is able to provide the support,

                •   the support cannot be provided more conveniently or economically by a
                    commercial enterprise, and

                •   the agreement does not conflict with any other agency’s authority.




4
    FAR 17.5 defines interagency acquisition to mean a procedure by which an agency needing supplies or
    services obtains them from another agency. DoD FMR defines interagency agreements to include support
    provided to non-DoD agencies.



                                                    5
           It further states that for interservice support, 5 a signed DD Form 1144, “Support
           Agreement,” documents the required determination by both the requesting and
           supplying organization.

           For the 54 outgoing MIPRs we reviewed, the Marine Corps did not provide
           Determinations and Findings to support 16 MIPRs to non-DoD organizations or
           Support Agreements to support the 37 MIPRs to other DoD organizations. 6
           Because the Marine Corps did not prepare Determinations and Findings for the
           non-DoD MIPRs, the respective contracting offices, which are required to
           approve Determinations and Findings, were not properly involved with the MIPR
           purchases. In addition, for MIPRs to other DoD organizations (under an assisted
           acquisition) the Marine Corps should have completed blocks 8 and 9 of the
           Support Agreements. 7

           When using assisted acquisitions, the supplying organization may charge the
           requesting agency a fee for administering the contract. Without its own
           contracting offices’ involvement, the Marine Corps could not ensure that it had
           not paid unnecessary fees to external commands for Marine Corps supplies and
           services. For 18 of the 54 outgoing MIPRs reviewed, valued at $2.3 million, the
           Marine Corps paid agency fees totaling approximately $64,000. For those
           MIPRs, the Marine Corps paid fees to U.S. Army Medical Research Activity
           Center, U.S. Army Research Development and Engineering Command
           Acquisition Center, Army Corps of Engineers, and the Department of Veteran
           Affairs. For example, the supporting documentation for one Quantico MIPR,
           valued at approximately $330,000, included a proposal that cited a $6,469 fee to
           the Department of Veteran Affairs - Cooperative Administrative Support Unit
           (CASU). 8

           The Department of Veteran Affairs, a host agency for the CASU, generates and
           issues contracts on behalf of the Marine Corps for temporary employees and
           environmental services. The Marine Corps issued 12 of the 54 outgoing MIPRs
           we reviewed, valued at about $1.6 million, to the Department of Veteran Affairs.
           Fees for those MIPRs totaled approximately $29,000. Although the regulations
           do not prohibit transactions between the Marine Corps and the Department of
           Veteran Affairs, the Marine Corps did not prepare a Determinations and Findings
           or Support Agreement for those MIPRs. Further, the Marine Corps could not
           explain why it was more appropriate to use the MIPR process for issuing
           contracts for temporary employees and environmental services than to use the
           Marine Corps contracting process, which might have excluded service fees. We
           plan to conduct a thorough review of DoD MIPRs issued to the Department of
           Veteran Affairs in a future audit.

5
    DoD Instruction 4000.19 defines interservice support as DoD organizations providing support to other
    DoD organizations.
6
    One outgoing MIPR file did not include enough information to identify whether the supplying
    organization was DoD or non-DoD.
7
    Support Agreements between DoD organizations are used when the supplying activity can provide the
    support with their personnel or add the requiring activity requirements to an existing contract.
8
    Cooperative Administrative Support Unit is a network of Federal entrepreneurial organizations that
    provide a full range of support services on a cost reimbursable basis.



                                                      6
Bona Fide Needs. The Bona Fide Needs statute, 31 U.S.C. 1502a, “Balances
Available,” January 19, 2004, requires that the balance of an appropriation or
fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability. The DoD FMR
volume 11A, chapter 3, which incorporates the Bona Fide Needs Rule, requires
that Economy Act Orders citing an annual or multiyear appropriation serve a need
existing in the fiscal year for which the appropriation is available. Because the
Marine Corps issued all 54 outgoing MIPRs under the Economy Act and cited an
annual appropriation, all 54 outgoing MIPRs were required to meet the Bona Fide
Needs Rule.

However, we were unable to determine whether 20 of the 54 outgoing MIPRs,
valued at approximately $8.7 million, met the Bona Fide Needs Rule because the
Marine Corps did not provide contracts, the periods of performance, or other
supporting documentation for the 20 outgoing MIPRs. According to
Camp Pendleton and IMEF Comptroller and Accounting personnel, those MIPRs
met the bona fide needs rule based on the Defense Federal Acquisition Regulation
Supplement (DFARS) Subpart 237.106, which states that “service contracts may
cross fiscal years regardless of when the preponderance of work is performed.”
Because files for the 20 outgoing MIPRs did not have available documentation
that indicated they were severable service contracts, we could not determine
whether they met the bona fide needs rule. Marine Corps should review the
MIPRs in question and determine whether they met the bona fide needs rule.

Additionally, the Marine Corps should ensure that the MIPR file contains proper
documentation to show how the determination was made. For example, the
DD Form 448 should include an adequate description of goods and services
expected to be delivered along with the estimated time of delivery or period of
performance.

Of the 34 outgoing MIPRs that included sufficient documentation to support a
Bona Fide Needs determination, one MIPR, valued at approximately $150,000,
did not meet the rule. Camp Pendleton issued a MIPR to the U.S. Army
Engineering Support Center on September 9, 2005, that used FY 05 Operation
and Maintenance (O&M) funds to provide technical support needed to implement
management systems through a central mission support portal. The related
contract modification was signed on September 30, 2005, and extended the period
of performance from December 31, 2005, to October 31, 2006. According to
DFARS, the Marine Corps is authorized to enter into a contract, exercise an
option, or place an order under a contract for severable services for a period that
begins in one fiscal year and ends in the next fiscal year if the period of the
contract awarded, option exercised, or order placed does not exceed 1 year. The
extension of the period of performance on this contract caused the contract to
exceed the 1-year authorization for severable services and therefore resulted in a
violation of the bona fide needs rule.




                                     7
MIPR Preparation
As the requesting organization, the Marine Corps was responsible for preparing
proper documentation when issuing MIPRs to the supplying organization.
Guidance for preparing MIPRs is promulgated in the:

   •   DoD FMR;

   •   DFARS Subpart 208.70, “Coordinated Acquisition,” December 20, 2002

   •   DFARS Subpart 253.208, “Required Sources of Supplies and Services,”
       August 31, 2000; and

   •   Marine Corps Order P7300.21, “Marine Corps Financial Execution
       Standard Operating Procedure Manual,” March 29, 2001.

As a Component of DoD, the Marine Corps should have used and properly
completed DD Form 448. However, the Marine Corps did not properly complete
the DD Forms 448 for 39 of the 54 outgoing MIPRs we reviewed. The 39 MIPRs
had the following issues.

Description of the Supplies and Services. For 10 of the 54 MIPRs, valued at
$3.6 million, the Marine Corps did not provide sufficient detail on the supplies or
services requested, as required by 31 U.S.C. 1501, “Documentary Evidence
Requirement for Government Obligations,” January 19, 2004, and the DoD FMR.
Specifically, the DoD FMR volume 11A, chapter 3, requires that Economy Act
orders be specific and definite as to the work requested and the terms contained in
the order. It is important that the description on MIPRs be specific to ensure that:

       •   amendments are in line with the scope of the work to be performed,

       •   the appropriate funds are being used, and

       •   verification can be made that the supplies and services ordered were
           received and adequate.

However, Camp Pendleton issued a MIPR to the U.S. Army Research,
Development & Engineering Command, valued at $3 million, that indicated
“general support” as supplies or services requested. General support is so vague
that it could encompass a wide variety of supplies and services.

Delivery Requirements. For 36 of the 54 MIPRs, valued at $12.4 million, the
Marine Corps did not complete the DD Form 448 in accordance with 31 U.S.C.
1501 and DFARS 253.208. DFARS 253.208 requires that the agency clearly state
the required period of performance in each MIPR, taking into consideration
administrative lead times. However, the 36 MIPRs did not specify the required
period of performance. Without the required period of performance, the
Marine Corps would have difficulty determining whether the supplying
organization was performing the MIPR in accordance with the original




                                     8
            agreement. Further, lack of the required period of performance may have limited
            the Marine Corps ability to make determinations concerning the Bona Fide Needs
            Rule.

            Additional Line Items. The Marine Corps created amendments to two MIPRs,
            valued at $1 million that added line items not included in the basic DD Form 448.
            In accordance with DFARS 208.70, the Marine Corps should have submitted a
            new MIPR to address requirements for additional line items of supplies or
            services not included on the original MIPR. One of the two MIPRs originally
            provided funds for construction on an Air Force base. The Marine Corps
            amended that MIPR three times and increased the MIPR value by
            approximately $17,000. Amendment number two provided additional funds for
            use of dining facilities on the Air Force base. Amendment number three, which
            was not accepted, attempted to provide funds for repairs to a fire hydrant on the
            base. Because amendments two and three were not part of the original request,
            the Marine Corps should have prepared a new MIPR for those services. During
            discussions, IMEF personnel informed us that they were not aware of this DFARS
            requirement.

            Standard Document Number. Two MIPRs valued at $12,000 did not contain
            the required “MP” 9 in the standard document number as required by
            Marine Corps Order P7300.21. 10 Properly completing the standard document
            number should ensure a more complete database of outgoing MIPRs and allow
            Marine Corps Headquarters to monitor those MIPRs.

            MIPR Execution
            As the requesting organization, the Marine Corps is responsible for managing
            MIPR funds and documentation and for monitoring progress by the supplying
            organization. However, the Marine Corps did not adequately perform these
            responsibilities for 51 of the 54 outgoing MIPRs we reviewed. The 51 MIPRs
            had the following issues.

            Authorized Balances. The IMEF issued one outgoing MIPR to the
            Marine Corps Systems Command 11 authorizing funds in the amount of $6,000 on
            the MIPR and MIPR Acceptance Forms. However, the commitment, obligation,
            expense, and disbursement balances in the accounting system totaled $12,000.
            According to guidance established in DFARS 253.208, an amendment must be
            prepared to adjust MIPR funds. However, the Marine Corps did not prepare an
            amendment to increase the funds on the original MIPR from $6,000 to $12,000.
            As a result, the account balances included an unauthorized amount of $6,000.


9
    The letters “MP” in the standard document number indicates that the document is a MIPR.
10
      The audit team identified three Department of Treasury MIPRs that did not contain the required standard
     document number. Because the audit did not include the review of Department of Treasury MIPRs, those
     MIPRs were excluded from the overall results.
11
     In accordance with Marine Corps Order P7300.21, a Navy Comptroller form should have been used
     instead a MIPR.



                                                       9
            The IMEF fund manager’s file did not include documentation that described what
            was purchased with the additional $6,000 even though all $12,000 of the funds
            had been expensed and disbursed.

            Support Documentation. For 45 of the 54 MIPRs we reviewed, the
            Marine Corps had not maintained documentation to verify the validity of its
            obligations and disbursements. These 45 MIPRs were valued at approximately
            $13 million.

                    Validity of Obligations. Five of the 54 MIPR files reviewed did not
            include the required DD Forms 448 “Military Interdepartmental Purchase
            Request” or 448-2 “MIPR Acceptance.” For example, one of the 54 outgoing
            MIPR files selected for review at IMEF contained only an e-mail stating the
            standard document number and line of accounting to be charged. IMEF
            comptroller staff provided Standard Accounting, Budgeting and Reporting
            System (SABRS) 12 history screens in an effort to support transactions recording
            the commitment, obligations, expenses, and disbursements related to the standard
            document number. However, there was no way of validating the information
            without the DD Forms 448 and 448-2 and other supporting documentation, such
            as receiving reports and invoices.

                    According to 31 U.S.C. 1501, an amount should be recorded as an
            obligation when supported with evidence of a written binding agreement.
            According to Marine Corps Order P7300.21, receipt of the DD 448-2 serves as
            notice to obligate funds from the requesting unit’s accounts. When an official
            document describing a financial transaction exists, the Government is legally and
            contractually liable for the amount shown on the source document. The absence
            of obligating documentation because it was not prepared or was lost prevents the
            Marine Corps comptroller offices from effectively monitoring their obligations
            and disbursements. As a result, Marine Corps increased its risks of
            Antideficiency Act violations.

                    Validity of Disbursements. The requesting fund managers’ file did not
            include a copy of the shipping reports or invoices to support disbursement
            transactions for 45 of the MIPRs, as required by Marine Corps Order P7300.21.
            The Camp Pendleton and IMEF Comptroller/Accounting Office stated that they
            do not receive an itemized billing to certify receipt and acceptance of goods and
            services. They explained that Defense Finance and Accounting Service (DFAS)
            maintained the required source documents to substantiate the receipt and
            acceptance of supplies and services. The payment vouchers that we obtained
            from DFAS Kansas City did include a disbursing officer certification indicating
            that the Marine Corps had received and accepted the requested supplies or
            services. However, based on the disbursement process that DFAS Kansas City
            explained, disbursing officers could not possibly know whether the Marine Corps
            had accepted the supplies or received the services. According to DFAS Kansas
            City personnel, DFAS Kansas City performs its disbursement responsibilities
            without obtaining documents that substantiate receipt and acceptance of supplies
            and services. Instead, DFAS Kansas City processes payments and posts

12
     The Standard Accounting, Budgeting and Reporting System is the official accounting system for the
     Marine Corps.



                                                      10
disbursements if the outgoing MIPR has an unliquidated (undisbursed) obligation
balance to cover the payment request. According to DFAS Kansas City
personnel, Marine Corps should have maintained the required source documents
to substantiate the receipt and acceptance of supplies and services. The
Commandant of the Marine Corps should implement policies and procedures to
specifically discuss record retention to verify the receipt of ordered goods and the
validity of related disbursements.

Timely Obligations. The Marine Corps did not timely obligate funds in the total
amount of $3 million upon receipt of 27 of the MIPR Acceptances, the obligating
documents. In accordance with Marine Corps Order P7300.21, an agency must
record an obligation in the accounting system within 3 working days of receipt of
the MIPR Acceptance. However, Camp Pendleton, received one DD 448-2 on
April 26, 2004, almost a month after it recorded the obligation. The requesting
office’s receipt of the DD 448-2 establishes an obligation and the Marine Corps
should not have recorded an obligation until the DD 448-2 was completed.
Because the Marine Corps obligated funds before receiving the obligating
document, the Marine Corps accounting records incorrectly indicated that funds
were not available for other mission needs.

Camp Pendleton, received another MIPR Acceptance on February 24, 2005, and
did not record an obligation in the accounting system until more than 5 months
later, on July 27, 2005. The Marine Corps also disbursed approximately $30,500
for that MIPR 3 days before it recorded the corresponding obligation in the
accounting system. The DoD FMR volume 14, chapter 10, “Violations – Causes,
Prevention and Correction,” October 2004, explains that the official accounting
records reflect an inflated and incorrect availability of funds when obligations are
not recorded. Marine Corps comptroller personnel use these records to certify
funds availability for other obligations. Because the Marine Corps did not record
the obligation in the accounting system, it increased its risk of potential
Antideficiency Act violations. Further, the Marine Corps might not have
discovered the potential violation until it recorded an unmatched disbursement in
the accounting system.

Disbursements. The Marine Corps recorded $7.8 million in disbursements
before it recorded corresponding expenses for 36 MIPRs. On one MIPR dated
October 4, 2004, IMEF had disbursements in the accounting system totaling
approximately $13,000. However, IMEF did not record the expense until almost
5 months later. The IMEF personnel stated that the DD Form 448 instructed
vendors to send all invoices to DFAS Kansas City. DFAS personnel stated that
they do not maintain invoices from the vendor. Receipt of a copy of the invoices
should prompt the Marine Corps to post the expense and notify DFAS that
disbursement is required. However, 45 of 54 MIPRs files we reviewed did not
contain vendor invoices. Our review of SABRS print screens showed that the
Marine Corps posted expenses without the vendor invoice after DFAS posted the
disbursements in the accounting system. In some cases, the accounting system
automatically posted the expenses once DFAS made the disbursement.




                                     11
Incoming Marine Corps MIPRs
    The Marine Corps did not have adequate internal controls over its incoming
    MIPRs. We reviewed 60 incoming MIPRs, valued at about $8 million that the
    Quantico, Camp Pendleton, and IMEF had received from other Government
    sources. The Marine Corps accepted improper MIPR requests, did not properly
    administer MIPRs, and inappropriately altered appropriation classifications for
    those MIPRs.

    MIPR Acceptance
    As the supplying organization for incoming MIPRs, the Marine Corps was
    responsible for ensuring that only MIPRs that complied with Marine Corps Order
    P7300.21 were accepted. However, the Marine Corps accepted 12 of the
    60 incoming MIPRs we reviewed, even though the requesting organization did
    not use the correct form or the Marine Corps could not perform 51 percent of the
    requested work.

    Required Forms. In accordance with Marine Corps Order P7300.21, the
    Marine Corps was responsible for ensuring that any requests for reimbursable
    work or services from another Component within the Department of the Navy
    were made using a Navy Comptroller 2275, “Order for Work and Services,” form.
    However, the Marine Corps accepted four MIPRs, valued at about $34,000, from
    other Department of Navy Components, that used DD Form 448, “Military
    Interdepartmental Purchase Request.”

    Performance Requirements. As the supplying organization, the Marine Corps
    was responsible for ensuring that it properly accepted MIPRs under direct citation
    of funds or reimbursements. Marine Corps Order P7300.21 states that the
    Marine Corps must perform at least 51 percent of the work or services in-house if
    it accepts a MIPR as reimbursable. However, the Marine Corps accepted 8 of the
    60 incoming MIPRs under the reimbursable funding category, valued at
    $3.3 million, when 51 percent of the work or services would not be performed
    in-house. For example, Quantico accepted an incoming MIPR from the Joint
    Program Office, LW155 Towed Howitzer on November 4, 2003, to provide
    support for Marine Corps operational test and evaluation activity testing. The
    MIPR and amendments totaled approximately $2.2 million. To service the MIPR,
    the Marine Corps issued five outgoing MIPRs and five Navy Comptroller 2275,
    “Order for Work and Services,” forms to other DoD organizations, which
    accounted for more than 75 percent of the services performed. Because the
    Marine Corps could not provide most of the services in-house, the MIPR should
    have been accepted under the direct citation of funds or the LW155 Towed
    Howitzer Program Office should have sent MIPRs directly to the appropriate
    supplying organizations.




                                        12
MIPR Administration
As the supplying organization, the Marine Corps was responsible for properly
administering incoming MIPR work and related funds. However, the
Marine Corps did not properly administer 38 of the 60 incoming MIPRs we
reviewed. The 38 MIPRs had the following issues.

Authorized Balances. The Marine Corps recorded approximately $5,000 in
unauthorized account balances for four incoming MIPRs. For example,
Camp Pendleton accepted a MIPR from the Naval Special Warfare Center that
provided funds to support FY 2004 Camp Pendleton Servmart privileges. On
May 31, 2004, the total authorized balance was approximately $9,000; however,
the obligated and expensed balances totaled more than $10,000. On June 1, 2004,
Camp Pendleton personnel sent an e-mail requesting additional funds. The Naval
Special Warfare Center issued an amendment to cover the unauthorized amount
and provide additional funds on June 24, 2004. DFARS 208.70 states that the
supplying organization is authorized to create obligations against the funds cited
in a DD 448; however, changes that affect the contents of the MIPR must be
processed as a DD 448-2. The requesting organization may initially transmit
changes by any expedited means, but must confirm changes by a MIPR
amendment. Camp Pendleton exceeded the amount of funds available for
obligation without the prior authorization from the Naval Special Warfare Center.
This practice increases the risk of Antideficiency Act violations.

Support Documentation. The fund managers’ files did not have the source
documents, as required by Marine Corps Order P7300.21, to support all
reimbursable spending transactions for 32 of the incoming MIPRs totaling
$6.0 million.

Deobligations. For 11 incoming MIPRs, the Marine Corps had not timely
deobligated approximately $110,000 in excess funds as required by Marine Corps
Order P7300.21. For example, on September 20, 2004, Camp Pendleton accepted
a MIPR from the Defense Commissary Agency that provided approximately
$172,000 for the San Onofre Commissary utilities during the period October 2003
through September 2004. Camp Pendleton only incurred approximately $116,000
in reimbursable spending transactions; however, approximately $56,000 in excess
funds was not returned to the requesting organization until May 2005.
Camp Pendleton used O&M funds for the MIPR; therefore, it should have
deobligated the funds by September 30, 2004, to comply with Federal
appropriation law.

Appropriation Classifications
As the supplying organization, the Marine Corps was responsible for ensuring
that limitations imposed on the use of funds were not changed. However, the
Marine Corps altered the appropriation classification to accept and perform
31 incoming MIPRs, valued at $4 million, as reimbursable orders. The
Marine Corps received MIPRs from governmental organizations that cited
various appropriation classifications including O&M; Research, Development,
Test and Evaluation; Procurement; and Working Capital Fund. However, the


                                    13
    Marine Corps accepted the MIPRs and classified all MIPR work under the O&M
    appropriation. Camp Pendleton and IMEF Comptroller personnel stated that they
    had to perform all work, including incoming MIPR work, under the O&M
    appropriation because they are provided with only O&M funds. However, each
    appropriation classification has its own restrictions and authorized uses. (See
    Appendix E for more information on availability of funds.)

    Some of the items and services provided through MIPRs clearly fall within
    appropriation classifications other than O&M. Otherwise, the requesting
    organizations would not have transferred the particular funding noted on the
    MIPRs to the Marine Corps. According to 31 U.S.C. 1301, transfers of an
    amount from one appropriation account to another appropriation account are
    prohibited unless the transfers are specifically authorized by law. The
    Marine Corps does not have the specific authority to transfer money from the
    appropriation noted on the MIPR to another appropriation. The Economy Act,
    31 U.S.C. 1535, does not allow a MIPR recipient to transfer the requesting
    organization’s funds to another appropriation. Further, 31 U.S.C. 1532 states that
    an amount authorized to be withdrawn or credited is available for the same
    purpose and subject to the same limitations provided by the law appropriating the
    amount. Therefore, the appropriations supporting the MIPRs are those of the
    requesting organization not the Marine Corps.

    Because the Marine Corps violated the statutory limitation on the purposes for
    which the O&M appropriation may be used, the Marine Corps may also have
    violated the Antideficiency Act as set forth in DoD FMR, volume 14, chapter 2,
    “Violations of the Antideficiency Act,” October 2002. The Marine Corps should
    determine if an Antideficiency Act violation occurred. If a violation occurred, the
    Marine Corps is required to perform corrective actions as provided in DoD FMR,
    volume 14, chapter 10, “Violations—Causes, Prevention and Correction,”
    October 2004.


Marine Corps Implementing Procedures on the MIPR Process
    Quantico, Camp Pendleton, and IMEF based their MIPR processes on their
    interpretations of Federal, DoD, and Marine Corps guidance that was either
    unclear or outdated. The lack of clear, updated guidance prevented and
    discouraged implementation of adequate controls over outgoing and incoming
    MIPRs for the Marine Corps.

    Federal and DoD Guidance on Determinations and Findings
    To support an interagency Economy Act order, the Federal Acquisition
    Regulation, Subpart 17.5, and the DoD FMR, volume 11A, chapter 3, require the
    agency to prepare a Determinations and Findings. For interservice support, DoD
    Instruction 4000.19 and DoD FMR, volume 11A, chapter 3, state that a signed
    Support Agreement documents the required determination. However, Federal and
    DoD guidance does not address interservice acquisitions that require the
    supplying organization to award a new contract. Because the guidance was


                                        14
unclear, we contacted the Office of the Secretary of Defense (Comptroller) to get
clarification. The Comptroller’s office stated that agencies must use either a
Determination and Finding or Support Agreement stating that the purchase is in
the best interest of the Government to support the Economy Act Order. The
Comptroller’s Office should clarify this requirement in the DoD FMR.

Guidance Updates and Implementation
Marine Corps issued conflicting guidance for transferring funds outside of the
Marine Corps. Additionally, internal Marine Corps command guidance was
outdated and did not clearly state its true intentions. Finally, the Marine Corps
did not implement Federal, DoD, and Marine Corps guidance throughout the
outgoing and incoming MIPR processes.

Review Requirement. Commandant of the Marine Corps memorandum, “Proper
Use of Non-DoD Contracts and Other Matters,” April 6, 2005, requires that the
supporting contracting officer and the requiring office’s comptroller provide a
documented review supporting all funds transferred outside of the Marine Corps.
The memorandum references the Marine Corps Acquisition Procedures
Supplement (the Supplement) for steps that will ensure that users conduct reviews
before transferring funds outside the Marine Corps.

Command-Level Guidance. In July 2005, Camp Pendleton issued Financial
Policy Memorandum 05-03 stating that all requests for the transfer of funds using
the Navy Comptroller 2275, “Order for Work and Services,” forms or MIPRs,
must be accompanied by a Determinations and Findings or Memorandums for
Record. However, the Camp Pendleton Contracting Office representative’s
interpretation of the memorandum is not consistent with the apparent intent of the
memorandum. Specifically, the Contracting Office representative stated that:

       •   only MIPRs requiring a contracting action require a Determinations
           and Findings or Memorandum for Record, and

       •   Determinations and Findings and Memorandums for Record were
           waived for MIPRs applied to ongoing contracts.

Quantico has not updated internal guidance to reflect DoD and Marine Corps
procedures for processing MIPRs. Specifically, Marine Corps Base Order
P7000.1, “Financial Management Manual,” May 20, 1986, does not provide
guidance on processing and executing MIPRs and developing required
Determinations and Findings and Memorandums for Record. Quantico stated that
it had plans to update the order; however, it had delayed those plans because of
continuous changes in the policies and in personnel. Additionally, the Quantico
Contracting Office representative stated she had plans to draft guidance on the
Determinations and Findings, but did not provide any draft or updated guidance.

Marine Corps Compliance. The layers of DoD and Marine Corps criteria have
led to various interpretations and applications of MIPR guidance, which resulted
in the Marine Corps not preparing and maintaining the required MIPR
documentation. The Marine Corps MIPRs we reviewed were prepared on or after


                                     15
    September 20, 2003, and should reasonably be expected to comply with the
    statutory, Federal, DoD, and Marine Corps guidance issued before that date.
    However, the Marine Corps had not enforced and, therefore, had not complied
    with portions of the established applicable guidance.

    Marine Corps personnel did not accurately prepare supporting documents, MIPR
    forms, and financial transaction records. This occurred in some instances because
    the Marine Corps had not adequately trained its personnel on the established
    polices and procedures. DoD managers responsible for the control and use of
    DoD funds also have a responsibility to ensure that their personnel receive proper
    oversight, support, and training to help prevent Antideficiency Act violations. It
    is management’s responsibility to identify the required knowledge and skills and
    to provide training necessary to perform the job. Further, supervisory oversight
    can help to ensure that established internal controls and standard operating
    procedures are adequate and consistently followed. The Marine Corps can reduce
    common Antideficiency Act violations through proper education and effective
    training of personnel and by ensuring that adequate internal controls and standard
    operating procedures are in place and followed.

    The Commandant of the Marine Corps should revisit guidance and clarify the
    requirement that a Determinations and Findings, Support Agreement, or
    Memorandum for Record accompany every MIPR. The Commandant should also
    require that the Marine Corps Comptroller Offices provide updated internal
    guidance and training on developing, processing, and executing MIPRs.


Conclusion
    Adequate internal controls are a critical element to ensuring that MIPRs are
    managed properly. The Marine Corps’ lack of adequate internal controls over the
    MIPR process resulted in potential violations of the Antideficiency Act,
    violations of public law, and noncompliance with Federal, DoD, and
    Marine Corps regulations. By violating the statutory authority limitations on the
    purpose for which the O&M appropriation may be used, the Marine Corps may
    have violated the Antideficiency Act. The Marine Corps must improve internal
    controls over the MIPR process by clarifying Marine Corp guidance that is
    unclear or confusing; ensuring that existing Federal, DoD, and Marine Corps
    regulations are enforced; and providing training to Marine Corps personnel that
    emphasizes proper MIPR procedures.


Management Actions
    The comptroller personnel at the IMEF, Camp Pendleton, stated that the files for
    MIPRs selected in our sample would not include the required Determinations and
    Findings documents. However, they stated that the IMEF had begun
    implementing the requirements over the last 6 to 8 months. They provided MIPR
    files for MIPRs initiated between July and September 2005. These MIPRs were
    not a part of our sample. We reviewed these files only for content and found that


                                        16
    the IMEF had prepared the required Determinations and Findings or
    Memorandums for Record for these MIPRs.


Recommendations, Management Comments, and Audit
  Response
    Revised, Deleted, and Renumbered Recommendations. As a result of
    management comments, we deleted Draft Recommendation A.1.b and revised and
    renumbered Draft Recommendation A.1.a. as Recommendation A.1.

    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer revise the DoD Financial Management
    Regulation, volume 11A, chapter 3 to clarify that a DoD organization
    requesting interservice support must prepare a Determinations and Findings
    unless it has completed a Support Agreement in accordance with DoD
    Instruction 4000.19.
    Management Comments: The Deputy Chief Financial Officer, responding for
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    nonconcurred with the recommendation. The Deputy Chief Financial Officer
    stated that the DoD Financial Management Regulation currently requires that all
    Economy Act orders be supported by a Determinations and Findings. The Deputy
    Chief Financial Officer stated that this policy reflects the requirements in the
    Federal Acquisition Regulation, Subpart 17.5, which mandates that Economy Act
    orders be supported by a Determinations and Findings. The Deputy Chief
    Financial Officer further cited Sections 030202.A and 030202.B of the DoD
    Financial Management Regulation, volume 11A, chapter 3, April 2000, to support
    the requirement that Economy Act orders be supported with Determinations and
    Findings.

    Audit Response: The Deputy Chief Financial Officer comments were
    nonresponsive. We do not agree with the Deputy Chief Financial Officer’s
    comment that the DoD Financial Management Regulation currently requires that
    all Economy Act orders be supported by a Determinations and Findings. Instead,
    the Regulation states, “In general, all Economy Act orders must be supported by a
    Determinations and Findings that the use of interagency support capabilities is in
    the best interest of the government.” Not all Economy Act orders provide
    interagency support. Therefore, the regulation also states that for an interservice
    Economy Act order, a signed Support Agreement documents the required
    determination. Because a Support Agreement is used for DoD organizations only
    when the supplying organization provides support with their personnel or adds the
    requesting organization’s requirements to an existing contract, the regulation does
    not address all types of Economy Act orders issued within DoD. Specifically, the
    regulation does not address Economy Act orders that require the supplying
    organization to award a new contract. We request that the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer reconsider her position on
    providing clarification in the DoD FMR that a DoD organization requesting
    interservice support must prepare a Determinations and Findings unless it has
    completed a Support Agreement in accordance with DoD Instruction 4000.19.


                                        17
A.2. We recommend that the Commandant of the Marine Corps:

       a. Direct the Comptroller Offices to initiate preliminary reviews and
possible corrective actions for military interdepartmental purchase requests
in Appendix C that violated or potentially violated the Antideficiency Act as
defined by the DoD Financial Management Regulation. (See Appendix C for
MIPRs that violated or potentially violated the Bona Fide Needs Rule and
MIPRs that violated statutory limitations imposed on appropriations.)

Management Comments. The Assistant Deputy Commandant for Programs and
Resources, responding for the Commandant of the Marine Corps concurred with
the recommendation. In coordination with the Office of the Assistant Secretary of
the Navy (Financial Management and Comptroller), a formal Preliminary Review
will be initiated and necessary corrective actions taken. The estimated date of
completion is August 1, 2006.

       b. Develop procedures and controls, such as a checklist, that ensure
all required data and supporting documents are developed and appropriately
reviewed before a military interdepartmental purchase request is certified.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that procedures had been developed and published
in the Commandant of the Marine Corps policy letter, “Proper Use of Non-DoD
Contracts and Other Matters,” dated April 6, 2005. Specifically, the policy letter
included a checklist and the requirement for Determinations and Findings.

Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Commandant of the
Marine Corps policy letter references the Marine Corps Acquisition Procedure
Supplement, which discusses only procedures for Determinations and Findings
and Memorandums for Record. The policy letter lacks procedures and controls,
such as a checklist, to ensure the certifying official does not certify military
interdepartmental purchase requests unless they are properly prepared and the
Determinations and Findings, Support Agreements, and Memorandums for
Record are developed and appropriately reviewed. Development of procedures,
such as a checklist, to ensure that military interdepartmental purchase requests
contain a sufficiently detailed description of the supplies and services and the
period of performance will improve the accuracy of military interdepartmental
purchase request documentation. We request that the Commandant of the
Marine Corps reconsider his position on developing additional detailed guidance
to ensure military interdepartmental purchase requests are completed properly.

       c. Develop roles and responsibilities of offices involved in the military
interdepartmental purchase request process to ensure proper enforcement of
Federal, DoD, and Marine Corps guidance.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that roles and responsibilities have been outlined in
the Commandant of the Marine Corps policy letter.




                                    18
Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Commandant of the
Marine Corps policy letter references the Marine Corps Acquisition Procedure
Supplement that discusses only the roles and responsibilities for completing and
reviewing Determinations and Findings and Memorandums for Record for
military interdepartmental purchase requests. The policy letter does not discuss
the roles and responsibilities for Fund Holders and the Comptroller Office to
process other military interdepartmental purchase request documentation (i.e. DD
Form 448). Outlining the roles and responsibilities for the parties involved in the
military interdepartmental purchase request process will aide in the proper
enforcement of Federal, DoD, and Marine Corps guidance. We request that the
Commandant of the Marine Corps reconsider his position on developing the roles
and responsibilities of offices like the Fund Holder and Comptroller in preparing
and reviewing military interdepartmental purchase requests.

        d. Develop procedures and controls that ensure all required military
interdepartmental purchase request documents and source documentation,
including support for the receipt of ordered goods and services and the
validity of related disbursements, are properly maintained in a single file
location.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that the responsibilities for military
interdepartmental purchase request documentation are outlined in the standard
process flows. Additionally, the update of the Marine Corps Order P7300.21 will
also contain detailed requirements for all MIPR documents and source
documentation, by October 31, 2006.

Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Marine Corps standard
process flow documents the existing functional area business processes, but it
does not provide procedures and controls to ensure that MIPR documentation is
properly maintained. The MIPRs we reviewed did not always include copies of
the shipping reports or invoices to support disbursement transactions. We request
that the Commandant of the Marine Corps ensure that the updated P7300.21
establishes procedures and controls so that MIPR documents and source
documents are properly maintained in a single file location.

       e. Clarify the Marine Corps guidance requiring that military
interdepartmental purchase requests be accompanied with a Determinations
and Findings, Support Agreement, or Memorandum for Record.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that the Commandant of the Marine Corps policy
letter clarifies the Marine Corps guidance on Determinations and Findings,
Support Agreements, or Memorandums for Record. Further, he stated that the
Marine Corps Order P7300.21 would be updated to clarify the Marine Corps
requirement on Determinations and Findings, Support Agreements, or
Memorandums for Record by October 31, 2006.




                                    19
Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Commandant of the
Marine Corps policy letter references the Marine Corps Acquisition Procedure
Supplement, which discusses only Determinations and Findings and
Memorandums of Record. The policy letter does not discuss Support
Agreements. Further, the Marine Corps had not enforced and, therefore, had not
complied with portions of the established guidance. As a result, Marine Corps
personnel did not always accurately prepare supporting documents. We request
that the Commandant of the Marine Corps ensure that the updated P7300.21
clearly identifies the requirement for developing a Determinations and Findings,
Support Agreements, or Memorandum for Record for all military
interdepartmental purchase requests.

       f. Direct the Marine Corps Comptroller Offices to develop or update
internal guidance and training on developing, processing, and executing
military interdepartmental purchase requests.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that correspondence would be provided to the
Marine Corps Comptrollers by June 30, 2006. On June 15, 2006, the
Marine Corps issued Marine Administrative Message number 276/06, “Guidance
on Issuing Requests for Reimbursable Work.”

Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Marine Administrative
Message provides detailed guidance on issuing reimbursable orders; however, it
does not discuss training. We request that the Commandant of the Marine Corps
direct the Marine Corps Comptroller Offices to develop training on developing,
processing, and executing military interdepartmental purchase requests.




                                   20
           B. Marine Corps Management Control
              Program for Military
              Interdepartmental Purchase Requests
           The Marine Corps management control program was ineffective and did
           not identify material weaknesses related to reporting MIPRs. This
           occurred because the Marine Corps did not perform a general assessment
           of the internal controls for processing MIPRs. As a result, controls were
           not adequate to ensure that funds were properly obligated, expensed and
           disbursed.

Criteria for Management Control Programs
    Government Accountability Office. GAO/AIMD-00-21.3.1, “Standards for
    Internal Control in Federal Government,” November 1999, states,
           The Federal Managers’ Financial Integrity Act of 1982 requires the
           General Accounting Office [Government Accountability Office] to
           issue standards for internal control in government. The standards
           provide the overall framework for establishing and maintaining internal
           control and for identifying and addressing major performance and
           management challenges and areas at greatest risk of fraud, waste,
           abuse, and mismanagement.

    The five standards for internal control are: control environment, risk assessment,
    control activities, information and communications, and monitoring. These
    standards define the minimum level of quality acceptable for internal control in
    Government and provide the basis against which internal control is to be
    evaluated.

    Office of Management and Budget. Office of Management and Budget Circular
    A-123, “Management Accountability and Control,” revised June 21, 1995,
    provides guidance to Federal managers on improving the accountability and
    effectiveness of Federal programs and operations by establishing, assessing,
    correcting, and reporting on management controls. Office of Management and
    Budget Circular A-123 states,
           Management controls are the organization, policies, and procedures
           used by agencies to reasonably ensure that programs achieve their
           intended results; resources are used consistent with agency mission;
           programs and resources are protected from waste, fraud, and
           mismanagement; laws and regulations are followed; and reliable and
           timely information is obtained, maintained, reported and used for
           decision making.

    DoD Directive. DoD Directive 5010.38, “Management Control Program,”
    August 26, 1996, implements the Government Accountability Office and Office
    of Management and Budget guidance that is required by the Federal Managers’
    Financial Integrity Act of 1982. The DoD Directive requires DoD Components to


                                             21
     implement a comprehensive strategy for management controls that provides
     reasonable assurance that “... programs and administrative and operating
     functions are efficiently and effectively carried out in accordance with applicable
     law and management policy.” The management control process should be
     integrated into the daily management practices of all DoD managers. When
     developing the Management Control Program, DoD managers should rely on all
     contributing information sources, including external audits.

     DoD Instruction. DoD Instruction 5010.40, “Management Control Program
     Procedures,” August 28, 1996, requires DoD Components to develop a
     Management Control Program. The Management Control Program, through its
     self assessment process, assists managers in identifying material management
     control weaknesses. The DoD Instruction states that to be a material weakness,
     two conditions must be satisfied:

             •   management controls are not in place, not used, or not adequate, and

             •   the weakness is material enough to require the attention of the next
                 level of management.

     Each DoD Component should submit an annual statement of assurance based on a
     general assessment of the effectiveness of the management controls.

Assessment of Internal Controls
     The Marine Corps management controls for processing MIPRs were not adequate
     to ensure that funds were properly obligated, expensed and disbursed. The
     Marine Corps could have assessed the internal controls over MIPRs by reviewing
     MIPR files to validate that:

         •   it had properly initiated, prepared, and executed outgoing MIPRs and

         •   it had accepted only proper incoming MIPR requests, properly
             administered those MIPRs, and not inappropriately altered appropriation
             classifications for those MIPRs.

     Had the Marine Corps performed periodic assessment of the internal controls for
     processing MIPRs, it might have identified inadequate and ineffective control
     practices that resulted in improper use of MIPRs, and potential Antideficiency
     Act violations. Marine Corps officials did not identify the MIPR process as an
     assessable unit and, therefore, did not report it in the annual statement of
     assurance.


Recommendations, Management Comments, and Audit
  Response
     Revised and Deleted Recommendations. As a result of management comments,
     we revised Recommendation B.1, to clarify our intention that periodic assessment


                                          22
be performed for the internal controls over processing military interdepartmental
purchase requests. Also, as a result of management comments, we deleted Draft
Recommendation B.2. We have renumbered Draft Recommendation B.1 as
Recommendation B.

B. We recommend that the Commandant of the Marine Corps evaluate and
test the internal controls identified by the major commands’ management
control programs to determine effectiveness and reliability of internal
controls for processing military interdepartmental purchase requests.

Management Comments. The Assistant Deputy Commandant for Programs and
Resources concurred, stating that the Marine Corps Order 5200.24C requires that
Marine Corps managers annually perform internal control assessments over
assessable units. The assessment is incorporated in the support command’s
annual statement of assurance, which is used to develop the Commandant of the
Marine Corps’ statement of internal controls for the Secretary of the Navy.

Audit Response. The Assistant Deputy Commandant for Programs and
Resources comments were partially responsive. The Marine Corps annual
assessments of internal controls failed to identify the military interdepartmental
purchase request process as an assessable unit. As a result, the MIPR process was
not reported in the Marine Corps annual statement of assurance. We request that
the Commandant of the Marine Corps reconsider his position on whether the
current annual assessments ensure the effectiveness and reliability of internal
controls, specifically, controls over the MIPR process.




                                    23
Appendix A. Scope and Methodology
            We conducted an audit research project to review the MIPR process within the
            Marine Corps. As a result of the research project, we announced an audit that
            reviewed the Marine Corps process for initiating MIPRs and obligating and
            disbursing funds for MIPRs, interagency purchases, and their equivalents.
            Specifically, we selected three Marine Corps sites to visit: Marine Corps Base,
            Quantico, Virginia and the Marine Corps Base and IMEF at Camp Pendleton,
            California. We performed site visits to those locations from October 17, 2005,
            through November 10, 2005. At each location we interviewed fund
            administrators, comptroller office staff, and contracting and legal personnel to
            learn the process used by the Marine Corps to execute these transactions. We
            developed a MIPR review checklist, which we based on criteria established in the
            DFARS, FMR, and Marine Corps Order P7300.21 and memorandums. We
            compared the actual Marine Corps process with the relevant criteria to assist in
            identifying weaknesses in internal controls.

            We selected a judgmental sample of MIPRs processed between September 20,
            2003, and September 30, 2005, for each location visited. We reviewed
            54 outgoing MIPRs, valued at about $14 million that Quantico, Camp Pendleton,
            and IMEF had issued to other Government sources. We also reviewed
            60 incoming MIPRs, valued at about $8 million that the Quantico,
            Camp Pendleton, and IMEF, had received from other Government sources. We
            requested and reviewed the supporting documentation for each transaction
            associated with the MIPRs selected. Specifically, we reviewed the available
            DD Form 448, “Military Interdepartmental Purchase Request;” DD Form 448-2,
            “Acceptance of MIPR;” e-mail correspondence identifying requirements; travel
            authorizations and vouchers; Memorandums for Record; Determinations and
            Findings; Support Agreements; invoices; SABRS 13 “Active File Inquiry” print
            screen; and SABRS “Multi History Transaction File Selection” print screen. We
            completed the MIPR review checklist for each MIPR 14 selected in our judgmental
            sample. We also requested and reviewed standard operating procedures relating
            to the initiation and execution of MIPRs, if available at the location visited.
            Our team traveled to DFAS, Kansas City to obtain information on how and when
            DFAS, Kansas City disbursed Marine Corps funds in the execution of the selected
            MIPRs. We interviewed personnel from the Field Accounting Office and the
            Intra-Governmental Payment and Collection System. DFAS, Kansas City
            provided some supporting documentation for payments and collections associated
            with incoming MIPRs received by the Marine Corps. Specifically, DFAS,
            Kansas City provided the Standard Form 1080, “Voucher for Transfers Between
            Appropriations and/or Funds;” Customer Analysis Report; and RBD file record
            for the incoming MIPRs at Quantico and Camp Pendleton.



13
     SABRS is the official accounting system for the U.S. Marine Corps, which has been certified through
     DoD Information Technology Security Certification and Accreditation in June 2003.
14
     A universal order format was also included in our sample.



                                                      24
    We performed this audit from September 1, 2005, through February 2006 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data provided directly from Marine Corps and DFAS Kansas
    City personnel that was extracted from the SABRS, SABRS Management
    Analysis Retrieval System, and Intra-Governmental Payment and Collection
    system. We did not perform a formal reliability assessment of the
    computer-processed data. We did not find errors between the computer-processed
    data and MIPR source documents that would preclude use of the
    computer-processed data to meet the audit objective or that would change
    conclusions in this report.

    Use of Technical Assistance. The Quantitative Methods Division and the
    Technical Assessment Division of the DoD OIG provided assistance. The
    Quantitative Methods Division ran a statistical sample for each Marine Corps
    Command based on the data provided in the universe. However, the universe was
    incomplete. Therefore, we used a judgmental sample for this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Interagency Contracts high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    issued three reports and the Naval Audit Service issued one report discussing
    MIPRs. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. Unrestricted Naval Audit Service reports can
    be accessed at http://www.hq.navy.mil/NavalAudit.

DoD IG
    DoD OIG Report No. D-2006-029, “Report on Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System” November 23, 2005

    DoD OIG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD OIG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests”, June 19, 2002




                                        25
Navy
       Naval Audit Service Report No. N2004-0039, “Unliquidated Obligations for the
       Research, Development, Test, and Evaluation, Navy Appropriation,” April 13,
       2004




                                         26
Appendix B. Glossary of Technical Terms
Antideficiency Act Violation. A violation of the Antideficiency Act occurs when an
obligation or expenditure exceeds the amounts available in an apportionment, a
reapportionment, a revolving fund, or an administrative subdivision of funds. To ensure
that all obligations are reconciled properly against available funds and authorized before
they are incurred, it is essential that organizations establish a funds control system. The
process should include recording a reservation of available funds (such as a commitment)
for authorized obligations that are not immediately obligated or recorded.

Appropriations. An appropriation is a provision of legal authority by an act of Congress
that permits Federal agencies to incur obligations and to make payments out of the
Treasury for specified purposes. An appropriation usually follows enactment of
authorizing legislation. An appropriation act is the most common means of providing
budget authority. Appropriations do not represent cash actually set aside in the Treasury
for purposes specified in the appropriation act; they represent limitations.

Budget Authority. Budget authority is the authority becoming available during the year
to enter into obligations that result in immediate or future outlays of Government funds.

Direct Citation Procurement. Direct citation procurement refers to procurement
accomplished by combining the requirements of one or more DoD Components with
those of a DoD Component making a procurement. The procuring Component may issue
one contract with separate schedules showing the quantities, prices, dollar amounts, and
citation of funds of each requiring Component. The direct citation order is recorded as an
obligation by the DoD Component included in the procurement when the Component is
notified in writing that the procuring Component's contract or project order has been
executed, or when a copy of the contract or project order is received.

Economy Act. The Economy Act authorizes agencies to enter into mutual agreements to
obtain supplies or services by interagency or intra-agency acquisition. The Economy Act
applies when more specific statutory authority does not exist.

Expired Appropriation. An expired appropriation is budget authority whose period of
availability for incurring new obligations has expired but the appropriation is not closed
or canceled. During this period, the appropriation is available for adjustment to, or
payment of, existing obligations. Appropriations remain in an expired status for 5 years.
At the end of the 5-year expiration period, the appropriation is closed or canceled and is
no longer available for the payment of unliquidated (undisbursed) obligations.
Interservice Support. Interservice support is support provided by one DoD organization
to a DoD Component of another military Service, Defense agency, Unified Combatant
Command, Army Reserves, Navy Reserves, Air Force Reserves, Marine Corps Reserves,
Air National Guard, or Field Activity.

Intragovernmental Support. Intragovernmental Support is support provided by a DoD
organization to a non-DoD Federal organization and vice versa. It does not include
support provided to or received from foreign governments.




                                            27
Military Interdepartmental Purchase Request (MIPR). A MIPR is an order issued by
one military Service to another to procure services, supplies, or equipment for the
requiring Service. The MIPR (DD Form 448) may be accepted on a direct citation or
reimbursable basis.

Obligations. Obligations are amounts of orders placed, contracts awarded, services
received, or similar transactions made by Federal agencies during a given period, which
will result in outlays during the same or some future period.

Reimbursable Procurement. Reimbursable procurement refers to an order for supplies,
material, or equipment placed by a requiring DoD Component (a) for procurement by
another DoD Component or Federal agency on a contract funded by the procuring DoD
Component or Federal agency, without separate identification of the items, or separate
citation of the funds of the requiring DoD Component; and (b) with subsequent delivery
to and reimbursement by the requiring DoD Component. The reimbursable order is
recorded as an obligation by the requiring DoD Component when the procuring DoD
Component accepts the reimbursable order in writing.

Support Agreement. A Support Agreement is an agreement to provide recurring
support to another DoD or non-DoD Federal organization. Support Agreements between
DoD organizations are used when the supplying organization can provide the support
with their personnel or add the requiring organization’s requirements to an existing
contract. Support Agreements are recorded on a DD Form 1144, “Support Agreement,”
or similar format. It defines the support to be provided by one supplier to one or more
receivers and specifies the basis for calculating reimbursement charges (if any) for each
service, establishes the billing and reimbursement process, and specifies other terms and
conditions of the agreement.




                                           28
Appendix C. MIPRs Reviewed


                     Camp Pendleton Outgoing

     MIPR No.          MIPR Value            Initiation                                                                  Preparation                                                                                                  Execution




                                      Memorandum for the Record, or


                                                                      Bona Fide Needs Rule Violation
                                      No Determinations & Findings,




                                                                                                                                                                                     Standard Document Number
                                                                                                       Description of Supplies and




                                                                                                                                                                                                                                                                                      Premature Disbursements
                                                                                                                                                                                                                                       Support Documentation
                                                                                                                                     Delivery Requirements

                                                                                                                                                             Additional Line Items




                                                                                                                                                                                                                                                               Untimely Obligations
                                                                                                                                                                                                                Authorized Balances
                                      Support Agreement




                                                                                                       Services
M0068104MP24801           $976,000              X                                  *                                                 X                                                                                                 X
M3300504MDPLINE             $8,000              X                                                                                                                                    X                                                 X                       X
M336104MPA0013              $7,000              X                                                                                                                                                                                      X                       X
M3320004MP00037           $243,000              X                                                                                    X                                                                                                 X                       X                       X
M3320004MP00038           $171,000              X                                                                                    X                                                                                                 X                       X                       X
M0068104MD00002            $67,000              X                                                                                    X                                                                                                 X                       X
M0068105MPENV13            $20,000              X                                  *                       X                         X                                                                                                 X                       X                       X
M0068105MPENVIR           $140,000              X                                  *                                                 X                                                                                                 X                       X
M0068105MPFE004           $106,000              X                                                                                                                                                                                      X                       X                       X
M0068105MPFE015           $130,000              X                                                                                    X                                                                                                 X                       X                       X
M0068105MPFE030           $350,000              X                                  *                                                 X                                                                                                 X                       X                       X
M0068105MPFW801           $935,000              X                                  *                                                 X                                                                                                 X                       X                       X
M3300505MDPLINE             $4,000              X                                                                                                                                    X                                                 X                       X                       X
M3320004MP00032           $158,000              X                                  *                                                 X                                                                                                 X                       X                       X
M0068105MPFE003           $106,000              X                                                                                                                                                                                      X                       X                       X
M0068105MPFE101           $200,000              X                                                                                    X                                                                                                 X                       X
M0068105MPFE104            $60,000              X                             *                                                      X                                                                                                 X                       X                       X
M0068105MPFE096           $150,000              X                             X                                                      X                                                                                                 X                       X
         18              $3,831,000            18                                1                           1                       13                        0                       2                         0                     18                      17                     11

*Potential Bona Fide Needs Rule Violations (7)
”X” indicates that the MIPR was deficient in the stated area.




                                                           29
      First Marine Expeditionary Force Outgoing

     MIPR No.          MIPR Value         Initiation                                                                   Preparation                                                                                                     Execution




                                       Memorandum for the Record, or




                                                                                                                                                                                      Standard Document Number
                                                                       Bona Fide Needs Rule Violation

                                                                                                        Description of Supplies and
                                       No Determinations & Findings,




                                                                                                                                                                                                                                                                                       Premature Disbursements
                                                                                                                                                                                                                                        Support Documentation
                                                                                                                                      Delivery Requirements

                                                                                                                                                              Additional Line Items




                                                                                                                                                                                                                                                                Untimely Obligations
                                                                                                                                                                                                                 Authorized Balances
                                       Support Agreement




                                                                                                        Services
M2031004MP00004              $9,000            X                               *                             X                        X                                                                                                  X                       X                      X
M2037105MP00016              $5,000            X                                                             X                        X                                                                                                  X                       X
M5708105MP00003                $200            X                                                                                      X                                                                                                  X
M6744805MP00005             $10,000            X                                                                                                                                                                                         X                       X
M2014604MPCE052          $2,476,000            X                                                                                      X                                                                                                  X                                              X
M2014604MPCE055              $8,000            X                                                                                      X                                                                                                  X                                              X
M2014604MPCE051            $118,000            X                                                                                                                                                                                                                                        X
M2031005MP00003              $1,000            X                                                             X                        X                                                                                                  X                       X
M2014604MPCE053          $3,182,000            X                               *                             X                        X                       X                                                                          X                                              X
M2014604MPCE054              $5,000            X                                                             X                        X                                                                                                  X                                              X
M2014604MPCE059          $2,589,000            X                               *                                                      X                                                                                                  X
M2014604MPCE061             $42,000            X                               *                             X                        X                       X                                                                          X                                              X
M2014604MPCE069            $230,000            X                                                                                      X                                                                                                  X                                              X
M2014605MPCE507              $7,000            X                                                                                      X                                                                                                  X                                              X
M2031004MP00002             $32,000            X                               *                                                      X                                                                                                  X                                              X
M2031005MP00001           Unknown              X                               *                                                                                                                                                         X                                              X
M5708104MP00009                $900            X                                                                                                                                                                                         X                                              X
M6744604MP00102              $6,000            X                               *                             X                        X                                                                           X                      X                       X                      X
M6744804MP0040              $20,000            X                               *                                                      X                                                                                                  X                       X
         19           $8,741,100 +/-         19                              0                                7                       15                      2                          0                         1                    18                        6                    13

*Potential Bona Fide Needs Rule Violations (8)
”X” indicates that the MIPR was deficient in the stated area.




                                                        30
                            Quantico Outgoing

      MIPR No.          MIPR Value         Initiation                                                                     Preparation                                                                                                 Execution




                                      Memorandum for the Record, or




                                                                                                                                                                                     Standard Document Number
                                                                      Bona Fide Needs Rule Violation


                                                                                                       Description of Supplies and
                                      No Determinations & Findings,




                                                                                                                                                                                                                                                                                      Premature Disbursements
                                                                                                                                                                                                                                       Support Documentation
                                                                                                                                     Delivery Requirements

                                                                                                                                                             Additional Line Items




                                                                                                                                                                                                                                                               Untimely Obligations
                                                                                                                                                                                                                Authorized Balances
                                      Support Agreement




                                                                                                       Services
M9303805MPZ1003            $87,000            X                                                                                                                                                                                                                 X
M9303805MPZ1001           $330,000            X                                                             X                                                                                                                                                                          X
M9303804MPZ1002           $144,000            X                                                                                                                                                                                         X                                              X
MMFAH704MP62002            $15,000            X                                    *                                                  X                                                                                                 X                                              X
M9301504MP34002             $4,000            X                                                                                       X                                                                                                 X                       X                      X
M9301505MP34002               $200            X                                                                                                                                                                                                                 X
M9301504MP34004            $74,000            X                                    *                                                  X                                                                                                 X                                              X
M9303804MPZ9001            $64,000            X
M9303804MPZ1004           $132,000            X                                                                                                                                                                                                                                        X
M9303804MPZ1001            $55,000            X                                                                                                                                                                                         X                                              X
MMFAH705MP62001            $28,000            X                                                                                       X                                                                                                 X                       X                      X
M9301505MP34003             $5,000            X
M9300403MPM2009            $96,000            X                                    *                                                  X                                                                                                 X                                              X
M9300403MPA5001             $5,000            X                                    *                                                  X                                                                                                 X                                              X
M9303804MPZ1003           $106,000            X                                                                                                                                                                                         X                                              X
M9301005MP53005               $500            X                                                             X                         X
M9303105MP55001            $13,000            X                                    *                                                  X                                                                                                                                                X
         17              $1,158,700         17                                   0                           2                         8                       0                        0                         0                      9                       4                    12

Marine Corps Total      $13,730,800         54                                   1                       10                          36                        2                        2                         1                    45                      27                     36

*Potential Bona Fide Needs Rule Violations (5)
”X” indicates that the MIPR was deficient in the stated area.




                                                           31
               Camp Pendleton Incoming

                          MIPR
      MIPR No.            Value              Acceptance                         Administration




                                                                                Authorized Balances
                                                           Requirements (51%)




                                                                                                                                      Appropriation Use
                                     Required Forms




                                                                                                      Documentation

                                                                                                                      Deobligations
                                                           Performance




                                                                                                      Support
DERM50109A339T           $616,000
MIPROWBFY05109              $2,000                                                                         X                             X
N6886905MP00012            $14,000              X
MIPR5DCMPEN045              $6,000
MIPR5HPEN4C186                $400
DERM50084A337N           $127,000                                                                         X
DERM50084A337P           $127,000                                                                         X
MIPR5JMPEN4C217             $1,000                                                                                                       X
MIPR4KCPPDH1250            $28,000                                                                         X
N6886904MP00014            $19,000              X                               X                          X
MIPR4FGM4S855            $322,000                          X                                               X
MIPR4008FCP001                $700                                                                         X                          X
MGLTWCY4275211              $1,000                                                                                                    X
MIPLTWCY327531              $6,000                                                                         X              X           X
MGLTWCY3275108           $116,000                                                                                         X           X
MIPLTWCR327631             $10,000                                                                        X               X           X
SA705705MPAD003               $600                                              X                                                     X
MIPLTWCR327531             $18,000                                              X                         X                X          X
DESCMR042538               $41,000                         X                                              X                           X
DESCMR043501               $67,000                         X                                                                          X
       20               $1,522,700               2         3                    3                        11                 4         11
”X” indicates that the MIPR was deficient in the stated area.




                                                      32
 First Marine Expeditionary Force Incoming

      MIPR No.          MIPR Value     Acceptance                                  Administration




                                                                                   Authorized Balances
                                                              Requirements (51%)




                                                                                                                                         Appropriation Use
                                        Required Forms




                                                                                                         Documentation

                                                                                                                         Deobligations
                                                              Performance




                                                                                                         Support
MIPR5BW1003101             $23,000                                                                           X           X               X
MIPR4GT1RDT022              $1,000                                                                                                       X
MIPR5GNDLTN40              $10,000                                                                           X
N0006905MPP2721                 $0
N0003804MP4CM42            $64,000                                  X
MIPR5EW10003699                 $0                                                                                                       X
MIPR04180728                    $0                                                                                                       X
MIPR5JMEF00Q92             $25,000                                                                                       X
MIPR4BMARIN162             $38,000
MIPR04180577              $300,000                                  X                                        X                           X
NMIPR044600212            $121,000      X                                                                    X
MIPR5JBRMT016              $65,000                                                                                                       X
N0001905MP04112               $700
NMIPR054600381             $46,000
MIPR5GW1004024                  $0                                                                                                       X
MIPR04180578              $287,000                                  X                                                                    X
MIPR4JMFP4M015             $13,000                                                                                                       X
MIPR4T1RDT020               $2,000                                                                                       X               X
NMIPR054600283             $91,000      X                                                                    X
          19             $1,086,700     2                            3                    0                   5           3              10
”X” indicates that the MIPR was deficient in the stated area.




                                                         33
                       Quantico Incoming

       MIPR No.            MIPR Value      Acceptance                               Administration




                                                                                  Authorized Balances
                                                             Requirements (51%)




                                                                                                                                        Appropriation Use
                                            Required Forms




                                                                                                        Documentation
                                                                                                                        Deobligations
                                                             Performance




                                                                                                        Support
MIPR4APIC01645              $2,199,000                                 X                                 X                                X
HEVANY05MPR0001              $961,000                                                                    X
HEVAQD04MPR0001              $915,000                                                                    X                   X
MIPR4GASAMS14                   $8,000                                                       X
MIPR4JDNGRPY01                  $2,000                                                                   X                   X
MIPR5MCCW70034                 $12,000                                                                   X
MIPR4CMCOTM010               $130,000                                                                    X                                X
DSSLTDDTBQMCB0401              $88,000                                                                   X                                X
MIPR5BMARIXA02                $113,000
T188                           $10,000                                                                   X                                X
SA702104MP1D025                $41,000                                                                   X                                X
MIPLPNDH427501               $291,000                                                                    X                   X            X
MIPR04FDIVMR103                 $3,000                                                                   X
ATEC05130                      $10,000                                                                                                    X
MIPR4A0MM00050                    $100                                                                                       X
MIPR5AOTCRM008                 $15,000                                                                   X
MIPLPNDH327401               $247,000                                                                    X                                X
MIPR5EASAMS01                  $10,000
MIPR4M4IPAD013                  $2,000                                                                   X                                X
MIPR4DMCOTW018                 $50,000                                 X                                 X                                X
MIPR4B13QATICO                  $2,000                                                                   X
           21               $5,109,100      0                           2                     1         16                    4         10

  Marine Corps Total       $7,718,500       4                           8                     4         32               11             31
”X” indicates that the MIPR was deficient in the stated area.




                                           34
Appendix D. Issues with MIPRs Reviewed

Outgoing MIPRs


                                       Camp Pendleton          IMEF        Quantico   Total
Total Number of MIPRs Reviewed                 18                19            17       54

MIPRs did not have Determinations
and Findings or Support Agreement              18                19            17     54 of 54

MIPRs did not meet the Bona Fide
Needs Rule*                                     1                 0             0     1 of 54

MIPRs lack sufficient detail on
supplies and services.                          1                 7             2     10 of 54
MIPRs did not have the required time
of delivery or performance.                    13                15             8     36 of 54

MIPRs added additional line items.              0                 2             0     2 of 54
MIPRs did not have the required
standard document number.                       2                 0             0     2 of 54
MIPRs had balances in excess of the
funds authorized by the MIPR
documents.                                      0                 1             0     1 of 54
MIPR file did not include source
documents (MIPR or MIPR
Acceptance).                                    0                 4             1     5 of 54
MIPR file did not include source
documents (shipping reports or
invoices).                                     18                18             9     45 of 54
Failed to timely obligate funds on
receipt of the obligating document.             17                6              4    27 of 54
Defense Finance and Accounting
Service disbursed funds before the
Fund Manager expensed.                          11                13            12    36 of 54
*We were also unable to determine whether 20 MIPRs met the Bona Fide Needs Rule




                                               35
Incoming MIPRs

                                         Camp Pendleton   IMEF   Quantico   Total
Total Number of MIPRs Reviewed                 20          19       21        60
Incorrectly accepted MIPR forms from a
Department of Navy Organization.               2           2        0       4 of 60
MIPRs accepted as reimbursable but
51 percent not performed in-house.             3           3        2       8 of 60
MIPRs had balances in excess of the
funds authorized by the MIPR
documents.                                     3           0        1       4 of 60
MIPR files did not have source
documents to support the reimbursable
spending transactions.                         11          5        16      32 of 60
Funds not timely deobligated.                  4           3        4       11 of 60
Altered appropriation classification           11          10       10      31 of 60




                                              36
Appendix E. Availability of Funds

Research, Development, Test, and Evaluation (RDT&E)
    DoD organizations use RDT&E funds to develop, test, and evaluate requirements,
    including designing prototypes and processes, with RDT&E appropriations. DoD
    organizations use RDT&E funds to develop major system upgrades, to purchase
    test articles, and to conduct developmental testing and initial operational testing
    and evaluation before they accept systems and have them produced. In general,
    RDT&E funds should be used for all developmental activities involved with new
    systems or major upgrades. RDT&E funds are available for obligation for
    2 years.

Operation and Maintenance
    Expenses incurred in continuing operations and current services are funded with
    O&M appropriations. The DoD Comptroller considers all modernization costs
    under $250,000 to be expenses, as are one-time projects such as developing
    planning documents and conducting studies. O&M funds are available for
    obligation for 1 year.

Procurement
    The acquisition and deployment of a complete system or the modification of a
    system with a cost of $250,000 or more is an investment and should be funded
    with a procurement appropriation. Complete system cost is the aggregate cost of
    all Components (for example, equipment, integration, engineering support, and
    software) that are part of, and function together, as a system to meet an approved
    documented requirement. For modification efforts, count only the cost of the
    upgrade (for example, new software, hardware, and technical assistance) towards
    the investment threshold. Procurement funds are available for obligation for
    3 years.

Defense Working Capital Fund
    The Defense Working Capital Fund is a revolving fund, which means that it relies
    on sales revenue instead of direct appropriations to finance its operations. A DoD
    organization that has a Defense Working Capital Fund receives reimbursements
    from another organization for the goods purchased or the services rendered. The
    revolving fund operates on a break-even basis over time, that is, the DoD
    organization operating the Defense Working Capital Fund neither makes a profit
    nor incurs a loss. Rates are adjusted annually to keep the fund in balance.
    Defense Working Capital Funds do not have a restriction on the time they are
    available for obligation.




                                        37
Military Construction
     A military construction project includes the cost of all military construction work
     to produce a complete and usable facility or a complete and usable improvement
     to an existing facility. According to 10 U.S.C. 2802, the Secretary of Defense and
     the Secretaries of the Military Departments may carry out such military
     construction projects as are authorized by law. According to 10 U.S.C. 2805, the
     Secretary of Defense and the Secretaries of the Military Departments may carry
     out unspecified minor construction projects equal to or less than $1.5 million. If
     the project is to correct a deficiency that is life, health, or safety threatening, then
     the Secretary may approve the project to cost up to $3 million. Military
     construction funds are available for obligation for 5 years.




                                           38
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Commandant of the Marine Corps
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Marine Corps Base Camp Pendleton Comptroller
Commander, Marine Corps Base Quantico Comptroller
Commander, First Marine Expeditionary Force Comptroller

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          39
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       41
Final Report
 Reference




Revised and
Renumbered
as
Recommen-
dation A.1




               42
     Final Report
      Reference




     Deleted




43
United States Marine Corps Comments




                     44
45
Final Report
 Reference




Revised and
Renumbered
as
Recommen-
dation B




Deleted




               46
47
48
49
50
51
52
53
54
55
56
57
58
59
60
61
62
63
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Alice F. Carey
Yalonda N. Blizzard
Brian R. McNamara
Lidet K. Negash
Calvin O. King
Lindsay B. Warner
Davita N. Pray
Frank Sonsini
Lusk Penn
